                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: A08080041                                                                     Page 1 of 1



                 We received an allegation that two of a subject's1 proposals2 were duplicative, with the
         second proposal's research objectives overlapping those of the first proposal, which was partially
         funded. The partial funding for the first proposal includes a reduction in length from three years
         to two, and a reduction in graduate student support from two students to one. The second
         proposal mentions the funding of the first proposal, and its partial funding. The second proposal,
         submitted before the award letter for the first proposal was generated, solicits funding in the
         same area. An overlap in research areas and research goals is not disingenuous on the part of the
         PI. A decision to fund the second proposal would reasonably involve a careful analysis of
         potential overlap by NSF program officers. There is no substance to an allegation of duplicate
         proposals.                              I


                    Accordingly, this case is closed.




          1
              Redacted.
              Redacted.



NSF 01G Form 2 (1 1/02)
